                                                              ~         SECU
                                                            O(jIJ;.~~

                                                        W/f1sN


                                                        \A!IIIIII          ~~
                                                             .'VlS~t'



                                      SOOAL                       SECURITY

                                        Office   of   the         Inspector        General

MEMORANDUM
                                                                                                 ReferTo: 31270-23-230
            September   27,2001
To:        Larry G. Massanari
           Acting Commissioner
            of Social Security

           Inspector General

           Replacement Social Security Number Cards: Opportunities to Reduce the Risk of
Subject:
           Improper Attainment and Misuse (A-08-00-1 0061 )


           The attached final report presents the results of our audit. Our objective was to assess
           the potential for individuals to improperly obtain and misuse replacement Social Security
           number cards.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on each recommendation. If you wish to discuss the final report,
           please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
           General for Audit, at (410) 965-9700.




                                                                                James G. Huse, Jr.


           Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



   REPLACEMENT SOCIAL SECURITY

   NUMBER CARDS: OPPORTUNITIES

      TO REDUCE THE RISK OF

 IMPROPER ATTAINMENT AND MISUSE



   September 2001   A-08-00-10061

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         Executive Summary
OBJECTIVE
The objective of the audit was to assess the potential for individuals to improperly obtain
and misuse replacement Social Security number (SSN) cards.

BACKGROUND
The expanded use of the SSN as an identifier has given rise to individuals using
improperly obtained SSN cards and cards belonging to others for illegal purposes.
Once obtained, individuals can use these cards to gain employment, obtain benefits and
services, establish credit, and hide their identities to commit various types of crimes.

In 1999, the Social Security Administration (SSA) processed over 16 million SSN card
applications, 11 million (almost 70 percent) of which were requests for replacement
SSN cards. SSA does not charge a fee for an individual to obtain a replacement SSN
card or limit the number of cards an individual can receive. Individuals applying for a
replacement SSN card must complete, sign, and submit an Application for a Social
Security Card (Form SS-5) at an SSA field office (FO) or through the mail.1 The Social
Security Act requires the Commissioner of Social Security to establish procedures to
verify identification (42 U.S.C. § 405(c)(2)(B)(ii)). SSA requires each applicant to
present documentary evidence of his or her identity.2 Foreign-born applicants must also
show evidence of U.S. citizenship, work authorized lawful alien status, or current
documentation of a valid non-work reason.3 SSA provides FO personnel guidance to
assist them in evaluating identity documents.4

After FO personnel review the SS-5 and determine the validity of supporting evidentiary
documents, they certify and enter applicant information into SSA’s Modernized
Enumeration System (MES). Once certified, the SSN application undergoes numerous
automated edits to validate applicant information. If the application passes all of these
edits, MES issues a replacement SSN card.5




1
    Program Operations Manual System (POMS), section RM 00202.001 A,D.
2
    POMS, section RM 00203.200 A.
3
    POMS, section RM 00203.400 A and RM 00203.510 A.
4
    POMS, section RM 00203.040 B.
5
    POMS, section RM 00201.015 B.


Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)                     i
RESULTS OF REVIEW
In prior Office of the Inspector General reports, we outlined the role SSNs play in the
commission of identity fraud crimes and highlighted some of the vulnerabilities in SSA’s
issuance of original SSN cards.6 Based on our work at 10 SSA FOs and analysis of
national replacement card data, we are equally concerned about SSA’s risk of improper
attainment and misuse of replacement SSN cards. SSA FO personnel with whom we
spoke shared our concern. In fact, some believed the risk was higher with replacement
SSN cards because the Agency requires less documentary evidence to obtain them.

From April 1, 1999 through March 31, 2000, SSA issued over 11 million replacement
SSN cards. In total, SSA issued 3 or more replacement SSN cards to
35,324 individuals.

•	 SSA issued 6 or more replacement SSN cards to 192 individuals, and, of these, we
   identified 108 (56 percent) instances of potential SSN misuse.

•	 SSA issued 3 to 5 replacement cards to 35,132 individuals, and we estimated there
   were 5,972 (17 percent) instances of potential SSN misuse.7

We have serious reservations regarding any person’s need to obtain more than
three replacement SSN cards in 1 year. In fact, our analysis identified various types of
irregularities that were indicative of individuals who may have obtained these
replacement SSN cards for suspect reasons. The most common irregularities we noted
involved number holders with an unlikely number of replacement SSN cards based on
their age and number holders whose earnings were proportionally higher than would be
expected given their age, number of employers, and type of employment. For example,
we believe it is highly improbable that, during 1 year, an individual could work for
multiple employers in numerous States and earn significant income from traditionally
low-paying jobs, such as those in the agriculture and service industries.

Although the remaining individuals who received three or more replacement SSN cards
could have misused these cards, they did not exhibit the characteristics we measured to
determine potential SSN misuse (see Appendix A for a detailed list of the characteristics
measured). We acknowledge the irregularities identified in this report are our opinion,
which is based on available evidence, and have not been fully investigated to determine
whether fraud or misuse actually occurred. It is impossible to precisely quantify the
extent of replacement SSN card misuse given its nature, but we believe the
irregularities we identified illustrate SSA’s risk of exposure to such activity.


6
 Procedures for Verifying Evidentiary Documents Submitted With Original Social Security Number
Applications (A-08-98-41009, September 2000) and Using Social Security Numbers to Commit Fraud
(A-08-99-42002, May 1999).
7
 We based this estimate on the number of instances of potential SSN misuse we identified from a
stratified random sample of 100 SSNs.


Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)                           ii
Despite SSA’s commitment to combat SSN fraud and misuse, SSA has additional
opportunities to reduce its exposure to such activity. SSA does not limit the number of
replacement SSN cards individuals can receive. Of the 35,132 individuals who received
3 to 5 replacement SSN cards during our audit period, we estimate SSA could issue
10 or more replacement SSN cards over a lifetime to 6,324 of these individuals.8 While
we recognize there are legitimate reasons for obtaining a replacement SSN card, such
as a name change or an occasional lost card, we believe the number of cards some
individuals obtain is indicative of SSN misuse. SSA FO personnel told us some
individuals who request multiple replacement SSN cards are homeless or mentally
impaired, but others sell their cards or allow someone else to use them for work
purposes. Our findings appear to support their concerns.

SSA has a stewardship responsibility to prevent and detect fraudulent activity. SSA
personnel increase the Agency’s exposure to such activity when they do not comply
with enumeration policies and procedures. For example, our review of 290 applications
(based on either in-person interviews or mail receipts) showed SSA issued
45 (16 percent) replacement SSN cards that should not have been issued based on the
applicant’s documentary evidence. FO personnel told us they do not always comply
with enumeration policies and procedures because they are under pressure to serve
applicants as quickly as possible. Although we recognize the need to satisfy customer
demands, we do not believe prompt customer service should ever take precedence
over preventing and detecting fraudulent activity.

CONCLUSIONS AND RECOMMENDATIONS
Despite SSA’s commitment to eliminating opportunities for fraud and misuse in its
enumeration process, the Agency’s exposure to such activity remains. We recognize
SSA has limited control over individuals who intentionally choose to misuse
replacement SSN cards the Agency appropriately issued. However, we believe SSA
has a duty to safeguard the integrity of SSNs by reducing opportunities for individuals to
engage in such activity. Given the potential for individuals to improperly obtain and
misuse replacement SSN cards, as evidenced by the examples presented in this report,
we believe SSA would benefit by taking a more proactive role in eliminating
opportunities to conduct such activity.

We believe the actions recommended in previous reports and those in this report will
assist SSA in reducing its risk from individuals who improperly obtain and misuse
replacement SSN cards. Accordingly, we recommend that SSA:

•	   Develop regulations and incorporate appropriate system controls to limit the
     number of replacement SSN cards an individual can receive during a 12-month
     period to 3 and over a lifetime to 10. SSA should implement a two-pin process
     requiring management personnel to approve extraordinary circumstances that
     warrant exceptions.
8
 We based this estimate on the number of individuals who had received 10 or more replacement SSN
cards over their lifetimes from a stratified random sample of 100 SSNs.


Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)                            iii
•	   Re-emphasize the importance of following enumeration policies and procedures
     associated with the issuance of replacement SSN cards, including the requirement
     to independently verify Immigration and Naturalization Service (INS) documents
     when indicated by SSA policy and the Systematic Alien Verification for Entitlements
     program.

•	   Conduct an inventory to determine the number of FOs that have operational black
     lights and INS document guides to use when verifying evidentiary documents. SSA
     should supply or repair these tools if necessary.

•	   Test FO employee compliance with procedures for issuing replacement SSN cards
     when performing periodic enumeration quality reviews. Additional training and/or
     supervision should be provided to employees if necessary.

AGENCY COMMENTS
Regarding Recommendation 1, SSA agreed it needs to look more carefully at the
issuance of replacement cards to ensure it takes every advantage of systematic
controls, such as limits, that might allow SSA to more effectively identify risk factors and
avoid the issuance of multiple replacement cards in questionable situations. SSA also
stated it is beginning further assessment to determine the most effective systematic
protocols to pursue.

SSA agreed with Recommendation 2 and stated that, by September 30, 2001, the
Office of Operations will issue a reminder to all FOs stressing the importance of
following enumeration policies and procedures.

SSA stated it believes current procedures address Recommendation 3. Specifically, the
Agency stated every FO has a copy of the Administrative Confidential Memorandum,
which is the INS’ guide for examining INS documents. SSA also stated the Regional
Integrity on-site security review or FO self-review includes actions to verify the FO’s
black light is operational. Additionally, SSA stated it is working with INS to provide SSA
employees access to more INS automated records and to implement an Enumeration at
Entry initiative.

SSA believes it can address Recommendation 4 through reminder items and training.
SSA stated the Office of Quality Assurance and Performance Assessment (OQA)
conducts an annual end-of-line review of both original and replacement cards issued to
access the accuracy of the process. Upon issuance of the next OQA report, the Deputy
Commissioner for Operations will include a reminder for the regional offices to have
FOs conduct refresher training, as indicated by OQA’s findings, and to remind staff that
they need to comply with all procedures for issuing replacement SSN cards.

SSA also provided technical comments that we considered and incorporated, where
appropriate. The full text of SSA’s comments is included in Appendix D.



Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)                    iv
OFFICE OF THE INSPECTOR GENERAL RESPONSE
We believe SSA’s response and planned actions adequately address
Recommendations 1, 2, and 4. However, we believe SSA’s response to
Recommendation 3 does not effectively respond to our goal of reducing opportunities
for individuals to improperly attain and misuse replacement SSN cards.

Regarding SSA’s response to Recommendation 3, we acknowledge SSA’s efforts in
working with the INS to provide SSA employees access to more INS automated records
and to implement the Enumeration at Entry initiative. While we believe these initiatives
will prove useful in the future, full implementation may be years away. In the meantime,
we continue to believe FO personnel should use every tool available, such as black
lights and INS guides, to assist them in detecting invalid evidentiary documents.

In its response, SSA stated every FO has a copy of the Administrative Confidential
Memorandum. We question how the Agency can make such a statement without
conducting an inventory as we suggested. As discussed in the report, 5 (50 percent) of
the 10 FOs we visited told us they did not routinely use a black light. In fact, two FOs
either did not have a black light or the light had been broken for years. Given the
importance of preventing individuals from fraudulently obtaining replacement SSN
cards, we continue to believe SSA should ensure that all FOs have operational black
lights and INS document guides to use when verifying evidentiary documents.
Therefore, we ask that SSA reconsider its response to this recommendation.




Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)                    v
                                                          Table of Contents

                                                                                                              Page

INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW.......................................................................................... 6

SSA IS AT-RISK FROM INDIVIDUALS WHO IMPROPERLY OBTAIN

AND MISUSE REPLACEMENT SSN CARDS ....................................................... 7


TYPES OF IRREGULARITIES ............................................................................... 8


OPPORTUNITIES TO REDUCE SSA’S RISK FROM INDIVIDUALS WHO

IMPROPERLY OBTAIN AND MISUSE REPLACEMENT SSN CARDS............... 10


•   SSA Did Not Limit the Number of Replacement SSN Cards........................... 10

•	 FO Personnel Did Not Always Comply With Enumeration Policies
   and Procedures............................................................................................... 12

CONCLUSIONS AND RECOMMENDATIONS .................................................... 14

APPENDICES

APPENDIX A – Sample Characteristics Measured

APPENDIX B – Sample Methodology

APPENDIX C – Sample Appraisals

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments




Improper Attainment And Misuse Of Replacement SSN Cards (A-08-00-10061)
                                                                Acronyms

    ASVI          Alien Status Verification Index

    ESF           Earnings Suspense File

    FO            Field Office

    INS           Immigration and Naturalization Service

    MES           Modernized Enumeration System

    POMS          Program Operations Manual System

    SAVE          Systematic Alien Verification for Entitlements

    SSA           Social Security Administration

    SSN           Social Security Number





Improper Attainment And Misuse Of Replacement SSN Cards (A-08-00-10061)
                                                                    Introduction

OBJECTIVE
The objective of this audit was to assess the potential for individuals to improperly
obtain and misuse replacement Social Security number (SSN) cards.

BACKGROUND
The expanded use of the SSN as a national identifier has given rise to individuals using
improperly attained SSN cards and cards belonging to others for illegal purposes. Once
obtained, individuals can use these cards to gain employment, obtain benefits and
services, establish credit, and hide their identities to commit various types of crimes.
Within the Social Security Administration (SSA), unlawful use of the SSN has equally
important implications. For example, SSA cannot post wages to the correct earnings
records when individuals use improper SSNs. SSA places wage items that fail to match
name and SSN records into its Earnings Suspense File (ESF).1 Furthermore, wages an
individual reports using another’s SSN may result in excess earnings recorded to an
individual’s wage records and can cause overpayment of SSA benefits to that individual.

SSA Issued               In 1999, SSA processed over 16 million SSN card applications.
over 11 Million          Over 11 million of these applications (almost 70 percent) were
Replacement SSNs         requests for replacement SSN cards. SSA does not charge a
in FY 1999               fee to obtain a replacement SSN card or limit the number of
                         replacement cards an individual can receive. At an
administrative cost of $18.70 to receive and process an SSN application, SSA spends
approximately $206 million, annually, to issue replacement SSN cards.

Issuance of Replacement SSN Cards

Individuals applying for a replacement SSN card must complete, sign, and submit an
Application for a Social Security Card (Form SS-5) at an SSA field office (FO) or
through the mail (intake process). Because SSA must be certain the individual is who
he or she claims to be, SSA requires each applicant to present documentary evidence
of his or her identity. An identity document submitted as evidence must be recently
issued and provide information so FO personnel can compare its contents with SS-5
data and/or with the applicant’s physical appearance.2 Among other documents,
acceptable evidence of identity include driver’s licenses, passports, school identification


1
 A wage item is an individual employee report prepared by employers on Form W-2, Wage and Tax
Statement, after the close of the calendar year that shows wages paid and taxes withheld during the prior
year.
2
    Program Operations Manual System (POMS), section RM 00203.200 A, I.



Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)                                 1
cards, marriage or divorce certificates, and military records.3 A non-picture identity
document should have two or more of the following items: name, signature, age, date of
birth, or parent’s names.4 Documents that should not be accepted as evidence of
identity are those that are issued based on an individual’s allegations and have little or
no probative value, such as a library card, vehicle or voter’s registration, and credit
card.5 Foreign-born applicants must also show evidence of U.S. citizenship, work
authorized lawful alien status, or current documentation of a valid non-work reason.6
Examples of documents establishing U.S. citizenship are State or local birth certificates,
U.S. passports, and certificates of naturalization.

SSA provides FO personnel guidance to assist them in evaluating identity documents.
For example, SSA instructs FO personnel to compare documents presented by
applicants with characteristics of a valid document and to be alert for alterations and
erasures. SSA also instructs FO personnel to compare information on each document
with information on the applicant’s SS-5 and Numident record.7 SSA provides FO
personnel copies of guides that provide examples of authentic documents, such as the
Administrative Confidential Memorandum, for documents issued by the Immigration and
Naturalization Service (INS). SSA guidance also requires FO personnel to view INS
documents under a black light to determine whether they conform to special
identification checkpoints and fluoresce.8 If INS has assigned an alien registration
number (“A” number) to an individual and he or she has been in the United States for
30 or more days, SSA also requires FO personnel to verify the validity of INS
documents via INS’ Systematic Alien Verification for Entitlements (SAVE) program.9

FO personnel review the SS-5 and determine the validity of supporting evidentiary
documents. They then certify and enter applicant information into SSA’s Modernized
Enumeration System (MES) (certification process). Once certified, the SSN application
undergoes numerous automated edits to further validate applicant information (systems
validation process). If the application passes all of these edits, MES issues a
replacement SSN card (service delivery process). Illustration 1 provides a general
overview of this process.




3
    POMS, section RM 00203.200 F.

4
    POMS, section RM 00203.200 I.

5
    POMS, section RM 00203.200 G.

6
    POMS, section RM 00203.400 A and RM 00203.510 A.

7
    POMS, section RM 00203.200 I.

8
    POMS, section RM 00203.720.

9
    POMS, section RM 00203.740.



Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)                  2
         Illustration 1: SSA’s Process for Issuing Replacement SSN Cards




Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)    3

SCOPE AND METHODOLOGY
From April 1, 1999 through March 31, 2000, SSA issued over 11 million replacement
SSN cards. We obtained a data extract from MES containing transactional data for all
replacement SSN cards the Agency issued during this 12-month period.10 As further
described in Appendix A of this report, from this universe, we identified SSN holders to
whom SSA issued three or more replacement cards. This population totaled
35,324 individuals. We then reviewed all of the SSNs where SSA issued 6 or more
replacement SSN cards during the 12-month period (192 SSNs). Additionally, we
randomly selected and reviewed a weighted sample of 100 SSNs where the Agency
issued 3 to 5 replacement cards during that same period. Using queries from SSA
systems, such as benefits and earnings records, the Numident file, and the ESF, we
assessed the potential for individuals to improperly obtain and misuse replacement SSN
cards. Specifically, we identified various types of irregularities that were indicative of
individuals who may have obtained replacement SSN cards for suspect reasons (see
Appendix B for a detailed list of the characteristics measured).11 These irregularities
included SSN holders who had

•	      earnings that were proportionally higher than would be expected given the
        individual’s age, number of employers, and type of employment;

•       obtained an improbable number of replacement SSN cards based on their age;

•	      wages in the ESF possibly because someone else provided an altered SSN card
        (with the number holder’s SSN but someone else’s name) to an employer or used
        the number holder’s SSN for work purposes without showing the employer an SSN
        card;12 and

•       earnings and were also drawing disability benefits under title II or title XVI.

As part of this audit, we also visited 10 SSA FOs to review the enumeration process as
it related to the issuance of replacement SSN cards. To ensure geographic diversity,
we selected FO’s in 5 of SSA’s 10 regions. Within each region, we first selected an FO
that issued a large number of replacement SSN cards during our audit period, and then
we selected another FO in the same location to supplement our work. At each FO, we
met with SSA management and staff to obtain their views on the Agency’s exposure
associated with replacement SSN cards. We also observed personnel processing
replacement SSN card applications at the window (200) and those received by

10
     We did not determine the reliability of the MES data.
11
  We acknowledge the irregularities identified in this report are our opinion, which is based on available
evidence, and have not been fully investigated to determine whether fraud or misuse actually occurred.
12
  We acknowledge that SSA could not have prevented either of these two conditions. Nevertheless, the
number of replacement cards obtained during our audit period coupled with the wages SSA posted to the
ESF for these number holders, indicate irregularities and possible SSN misuse.


Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)                                      4
mail (90). We reviewed previously processed applications for replacement cards (200).
In addition, we verified the validity of all (102) INS documents with an “A” number.
Finally, we independently verified 27 of these with INS because SAVE indicated
“institute secondary verification” at the time of our review.

During our audit, we interviewed SSA Headquarters staff responsible for planning,
managing, and implementing the Agency’s policies and procedures for issuing
replacement SSN cards. Additionally, we reviewed relevant SSA regulations, policies,
and requirements pertaining to the enumeration function as it relates to replacement
SSN cards. We performed our audit work at SSA Headquarters in Baltimore, Maryland,
and two FOs in each of the following states: Texas, Illinois, New York, Florida, and
Nevada.

The SSA entities reviewed were the Office of Program Benefits under the Deputy
Commissioner for Disability and Income Security Programs and the Office of Public
Services and Operations under the Deputy Commissioner for Operations. We
completed our audit field work between October 2000 and February 2001. We
conducted our audit in accordance with generally accepted government auditing
standards.




Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)             5
                                                  Results of Review

In prior Office of the Inspector General reports, we outlined the role SSNs play in the
commission of identity fraud crimes and highlighted some of the vulnerabilities in SSA’s
issuance of original SSN cards. Based on our work at 10 SSA FOs and analysis of
national replacement card data, we are equally concerned about SSA’s risk of exposure
to individuals who improperly obtain or misuse replacement SSN cards. SSA FO
personnel with whom we spoke shared our concern. In fact, some believed the risk was
higher with replacement SSN cards because the Agency requires less documentary
evidence to obtain them.

From April 1, 1999 through March 31, 2000, SSA issued over 11 million replacement
SSN cards. In total, SSA issued 3 or more replacement SSN cards to
35,324 individuals.

•	 SSA issued 6 or more replacement SSN cards to 192 individuals, and, of these, we
   identified 108 (56 percent) instances of potential SSN misuse.

•	 SSA issued 3 to 5 replacement cards to 35,132 individuals, and we estimated there
   were 5,972 (17 percent) instances of potential SSN misuse.

We have serious reservations regarding any person’s need to obtain more than
three replacement SSN cards in 1 year. In fact, our analysis identified various types of
irregularities indicative of individuals who may have obtained replacement SSN cards
for suspect reasons. The most common irregularities we noted were number holders
with an unlikely number of replacement SSN cards based on their age and number
holders whose earnings were proportionally higher than would be expected given their
age, number of employers, and type of employment. For example, we believe it is
highly improbable that, during 1 year, an individual could work for multiple employers in
numerous States and earn significant income from traditionally low-paying jobs, such as
those in the agriculture and service industries.

Although the remaining individuals who received three or more replacement SSN cards
could have misused these cards, they did not exhibit the characteristics we measured to
determine potential SSN misuse (see Appendix B for a detailed list of the characteristics
measured). We acknowledge the irregularities identified in this report are our opinion,
which is based on available evidence, and have not been fully investigated to determine
whether fraud or misuse actually occurred. It is impossible to precisely quantify the
extent of replacement SSN card misuse given its nature, but we believe the
irregularities we identified illustrate SSA’s exposure to such activity.

Despite SSA’s commitment to combat SSN fraud and misuse, SSA has additional
opportunities to reduce its exposure to such activity. SSA does not limit the number of
replacement SSN cards individuals can receive. Of the 35,132 individuals who received
3 to 5 replacement SSN cards during our audit period, we estimate SSA could issue


Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)                 6
10 or more replacement SSN cards over a lifetime to 6,324 of these individuals. While
we recognize there are legitimate reasons for obtaining a replacement card, such as a
name change or an occasional lost card, we believe the number of cards some
individuals obtain is indicative of SSN misuse. SSA FO personnel told us some
individuals who request multiple replacement SSN cards are homeless or mentally
impaired, but others sell their cards or allow someone else to use them for work
purposes. Our findings appear to support their concerns.

SSA has a stewardship responsibility to prevent and detect fraudulent activity. SSA
personnel increase the Agency’s exposure to such activity when they do not comply
with enumeration policies and procedures. For example, our review of 290 applications
(based on either in-person interviews or mail receipts) showed SSA issued
45 (16 percent) replacement SSN cards that should not have been issued based on the
applicant’s documentary evidence. FO personnel told us they do not always comply
with enumeration policies and procedures because they are under pressure to serve
applicants as quickly as possible. Although we recognize the need to satisfy customer
demands, we do not believe that prompt customer service should ever take precedent
over preventing and detecting fraudulent activity.

SSA IS AT-RISK FROM INDIVIDUALS WHO IMPROPERLY OBTAIN
AND MISUSE REPLACEMENT SSN CARDS

                                          Based on our interviews and observations at
 FO Personnel Acknowledged                SSA FOs and analysis of national
 SSA’s Risk of Exposure to                replacement card data, we believe the
 Replacement SSN Card Misuse Is           potential for individuals to improperly obtain
 Considerable                             and misuse replacement SSN cards is
                                          significant. SSA personnel at all of the
10 FOs we visited believe the Agency’s risk of exposure to such activity is considerable.
In fact, several FO managers told us they believe it would be easier for an individual to
improperly obtain a replacement card than an original card because SSA’s
requirements for evidentiary documents are less strict. One FO manager stated “SSA’s
antenna is not up as high” when processing replacement cards, so it is easier for
individuals to improperly obtain and misuse replacement SSN cards.

FO personnel also told us they believe it would be easier for a U.S. born citizen than a
foreign-born individual to improperly obtain a replacement card because SSA only
requires evidence of identity. FO personnel told us they believe the primary reasons a
U.S. born citizen would want to improperly obtain another individual’s replacement card
would be to avoid creditors, establish a new identity, or evade child support. The
primary reason FO personnel cited for noncitizens wanting to improperly obtain a
replacement card was for work purposes. Several FO staff members told us they
believe applications for replacement cards sent in through the mail are more vulnerable
to fraudulent activity because SSA personnel cannot observe the applicant’s
characteristics (for example, age, race and gender) or ask questions, which could assist
them in determining the number holder’s identity.


Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)                 7
FO personnel we spoke with also told us SSA is at-risk from individuals who improperly
obtain and misuse replacement cards because the Agency is not focused on fraud. For
example, one FO manager stated, “SSA trains FO personnel to provide customer
service, not to identify SSN fraud and misuse.” Another FO manager told us that,
although SSA sends reminders to FOs that address the need to adhere to fraud
prevention procedures, SSA is more concerned with shortening customer wait times
and answering congressional inquiries than preventing and detecting fraud and misuse.
The manager told us the Agency identifies fraudulent activity by accident, not by
controls designed to prevent and detect such activity.

To ensure accuracy in all SSA programs, the Agency must maintain the integrity of the
SSNs it issues. When individuals improperly obtain or misuse replacement SSN cards,
wages reported under that SSN cannot be associated with workers’ earnings and
therefore public confidence in SSA’s stewardship of Agency programs is adversely
affected. Further, the accuracy of employees’ names and SSNs is important to SSA
because it reduces operating costs. In the past, SSA officials estimated it cost less than
$.50 to post a correctly submitted wage item to an individual’s earnings record and an
average of $300 to correct an item once it goes into the ESF. Although the Agency is
attempting to calculate and update unit cost, we believe the administrative costs
associated with this process are significant. Finally, wages reported using another’s
SSN may result in excess earnings recorded to an individual’s wage records and can
cause overpayment of SSA benefits to that individual. Accordingly, we believe SSA
must do more to reduce its exposure to the improper attainment and misuse of
replacement SSN cards.

TYPES OF IRREGULARITIES
SSA issued 6 or more replacement SSN cards to 192 individuals during our audit
period, and we identified 108 (56 percent) instances of potential SSN misuse. That is,
our analysis showed various types of irregularities that are indicative of individuals who
may have obtained replacement SSN cards for suspect reasons. The most common
irregularities we identified follow.

•	   Number holders who obtained an improbable number of replacement SSN cards
     based on their age. For example, SSA issued 20 replacement SSN cards to a
     2-year-old child. Because we found no earnings posted to the child’s account, we
     believe someone could have obtained these cards for other purposes. For
     example, someone could have obtained these cards to establish credit or
     improperly obtain benefits and services.

•	   Number holders whose earnings were proportionately higher than would be
     expected given the individual’s age, number of employers, and type of employment.
     We believe it is highly improbable that, during 1 year, an individual could work for
     multiple employers in numerous States and earn significant income from
     traditionally low-paying jobs, such as those in the agriculture and service industries.



Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)                      8
     In these cases, we believe several individuals used the same name and SSN for
     work purposes.

•	   Number holders who had wages in the ESF possibly because someone else
     provided an altered SSN card (with number holder’s SSN but someone else’s
     name) or used the number holder’s SSN for work without showing the employer an
     SSN card.13 SSA placed about $90,000 in suspended earnings in the ESF during
     1999 from these instances.

•	   Number holders who had earnings and were drawing disability benefits under title II
     or title XVI. These individuals either exceeded their earnings limit or someone else
     used their SSN for work purposes.

SSA issued 3 to 5 replacement SSN cards to 35,132 individuals during our audit period.
During our review of 100 randomly selected SSNs with 3 to 5 replacement cards, we
identified 17 (17 percent) instances of potential SSN misuse. Therefore, we estimate
there were 5,972 instances of potential SSN misuse in the 35,132 replacement SSN
cards (see Appendix C). The two types of irregularities we identified were number
holders who (1) obtained an improbable number of replacement SSN cards based on
their age and (2) had wages in the ESF under a different name and obtained three or
more replacement SSN cards during the audit period.

We believe the following examples of SSNs issued during our audit period illustrate
SSA’s exposure to SSN misuse, provide an exceptional learning opportunity for the
Agency, and serve as a catalyst for changes essential to ensuring the SSNs integrity.
We will refer the following types of irregularities to SSA’s Office of the Inspector
General, Office of Investigations.

•	 SSA issued 6 replacement SSN cards to a 34-year-old male (24 cards lifetime). He
   had $172,000 in earnings from 27 employers in 10 States during 1999. In addition,
   he had $121,000 in earnings from 8 employers in 1998 and $65,000 in earnings
   from 15 employers in 1997.

•	 SSA issued 12 replacement SSN cards to a 19-year-old male (23 cards over his
   lifetime). He had $113,000 in earnings from 24 employers in 19 States during 1999.

•	 SSA issued 6 replacement SSN cards to a 25-year-old male (13 cards over his
   lifetime). He had $106,000 in earnings from 12 employers in 8 States during 1999.
   He also had over $10,000 in earnings that went into the ESF under his SSN (but a
   different name) in 1999. In addition, he had $83,000 in earnings from 10 employers
   in 1998, and $60,000 in earnings from 13 employers in 1997.



13
  We acknowledge that SSA could not have prevented either of these two conditions. Nevertheless, the
number of replacement cards obtained during our audit period coupled with the wages SSA posted to the
ESF for these number holders, indicate irregularities and possible SSN misuse.


Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)                             9
•	   SSA issued 10 replacement SSN cards to a 90-year-old female (18 cards over her
     lifetime). Given her advanced age, we question the need for the number of cards
     obtained, and we believe someone else may have obtained these cards for suspect
     reasons. For example, someone could have obtained these cards to assume her
     identity or improperly obtain benefits and services.

•	   SSA issued 7 replacement SSN cards to a 30-year-old male (20 cards over his
     lifetime). He had $89,000 in earnings from 12 employers in 10 States during 1999.
     He had less than $11,000 in total earnings from 1994 through 1998.

•	   SSA issued 14 replacement SSN cards to a 33-year-old male (78 cards over his
     lifetime).

OPPORTUNITIES TO REDUCE SSA’S RISK FROM INDIVIDUALS WHO
IMPROPERLY OBTAIN AND MISUSE REPLACEMENT SSN CARDS
Because SSA does not limit the number of replacement SSN cards it issues an
individual, the Agency issues multiple cards to many individuals, some of whom misuse
them. Furthermore, FO personnel increase the Agency’s exposure to such activity
when they do not comply with enumeration policies and procedures when processing
applications for replacement SSN cards.

SSA Did Not Limit the Number of Replacement SSN Cards

Of the 192 individuals who received 6 or more replacement SSN cards during our audit
period, SSA issued 10 to 29 cards to 67 percent of them over their lifetimes, 30 to
49 cards to 10 percent, and 50 or more cards to 4 percent, as shown in Exhibit 1.

                                       Exhibit 1:

                 Distribution of the Number of Lifetime Replacement

            SSN Cards SSA Issued to Individuals Who Received Six or More

                            Cards During Our Audit Period




                         19%                          67%


                                                            6 to 9
                                                            10 to 29
                           4%
                                                            30 to 49
                                10%                         50 or more




Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)              10
Of the 100 randomly selected individuals who received 3 to 5 replacement cards during
our audit period, SSA issued 10 to 29 cards to 16 percent over their lifetimes and 30 or
more replacement cards to 2 percent, as shown in Exhibit 2. We estimate that, of the
35,132 number holders who obtained 3 to 5 replacement SSN cards during our audit
period, 6,324 obtained 10 or more over their lifetimes (see Appendix C).

                                      Exhibit 2:
                Distribution of the Number of Lifetime Replacement
           SSN Cards SSA Issued to Individuals Who Received 3 to 5 Cards
                               During Our Audit Period

                                                           3 to 9
                           82%                             10 to 29
                                                           30 or more




                                                    16%
                                              2%



While we recognize there are legitimate reasons for obtaining a replacement SSN card,
such as a name change or an occasional lost card, some individuals abuse SSA’s
policy of not limiting the number of cards. For example, we question an individual’s
need for 14 replacement SSN cards in a year and 78 over a lifetime. SSA personnel
told us that some individuals who request multiple replacement SSN cards are
homeless or mentally impaired and others sell the cards or allow others to use them for
work purposes. We acknowledge SSA has little control over individuals who choose to
misuse replacement SSN cards the Agency appropriately issued, but we believe SSA
has a duty to safeguard the integrity of SSNs by reducing opportunities for individuals to
engage in such activity.

We believe SSA should limit the number of replacement cards an individual could
receive during a specific period and over a lifetime (for example, 3 cards during a
12-month period and 10 cards over a lifetime). We realize there could be exceptions to
this policy, such as when the health or welfare of an individual may be impacted.
However, we believe these instances should be the exception, not the rule. SSA could
institute a two-pin process to allow supervisors to control these exceptions.

SSA personnel at FOs we visited agreed the Agency should limit the number of
replacement SSN cards. FO personnel told us that limiting the number of replacement
cards could reduce the Agency’s exposure to SSN misuse as well as reduce FO
workload. FO managers also told us that reducing workload would give personnel more
time to effectively review applications for replacement SSN cards, thus increasing their
chance of detecting fraudulent activity.


Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)                 11
FO Personnel Did Not Always Comply with Enumeration Policies and Procedures

Through interviews and observations at the 10 FOs, we determined that SSA personnel
did not always comply with enumeration policies and procedures when processing
applications for replacement SSN cards. For example, our review of 290 applications
(based on either in-person interviews or mail receipts) showed SSA issued
45 (16 percent) replacement SSN cards that should not have been issued based on the
applicant’s documentary evidence. The most common occurrences of FO personnel’s
noncompliance with enumeration policies and procedures follow.

•	 Failure to require applicants to provide two or more of the following items: name,
   signature, age, date of birth, or parents’ name when presenting a non-picture identity
   document.

•    Acceptance of unallowable identity documents.

•    Failure to require proper documentation in support of a name change.

•	 Failure to seek secondary verification of INS documents when indicated by the
   SAVE program.

In addition to our review of the 290 applications discussed above, we also reviewed
200 previously processed applications for replacement SSN cards.14 Of the
490 applications, 102 had alien registration numbers (or “A” number) that we verified
through INS’ Alien Status Verification Index (ASVI), which is part of the Agency’s SAVE
program. ASVI indicated “institute secondary verification” for 27 of these at the time of
our review; therefore, we independently verified them with the INS. The INS confirmed
that 6 of the 27 individuals had been in the United States over 30 days when they
applied for SSNs and that ASVI would have indicated “institute secondary verification”
at that time. As such, according to SSA policy, FO personnel should have submitted
the documents to INS for independent verification of their authenticity.

The INS confirmed all six documents were invalid. The INS also confirmed that three
additional documents were invalid, but these individuals had been in the country for less
than 30 days, and SSA policy does not require FO personnel to verify these documents
with INS. Nevertheless, 9 (9 percent) of the 102 individuals who presented evidentiary
documents containing an “A” number improperly obtained a replacement SSN card.




14
  Because SSA did not retain copies of documentary evidence for previously processed applications, we
could not examine them to determine compliance with enumeration policies and procedures, with the
exception of those applications where SSA personnel documented an “A” number.


Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)                            12
Moreover, FO personnel told us they did not always use tools, such as black lights and
INS guides, to assist them in detecting invalid evidentiary documents. FO personnel in
5 (50 percent) of the 10 FOs we visited told us they did not routinely use a black light.
Rather, they generally relied on visual inspection to identify invalid evidentiary
documents, thus making identification difficult given the quality of such documents. In
fact, 2 of the 10 FOs we visited did not have a black light or it had been broken for
years. Furthermore, FO personnel told us they did not always compare information on
the SS-5 with the applicant’s Numident record to ensure information the applicant
provided matched SSA records. We also observed FO personnel who provided key
information (for example, mother’s and father’s name and date of birth) to the applicant
while assisting them in completing their SS-5 application for a replacement card. We
believe the purpose of requiring applicants to fully complete the SS-5 is to ensure they
are who they purport to be and the information they provide matches SSA’s records.

FO personnel also told us they often issue replacement cards even though they have
concerns about the probative value of supporting identity documents. For example,
personnel at one FO told us they accept a local county health department’s
identification document as evidence of identity, knowing that anyone can obtain one just
by giving a name. FO personnel also told us they often don’t have time to verify
suspect documentary evidence due to a large workload.

FO personnel told us they do not always comply with enumeration policies and
procedures because they feel pressure to serve applicants as quickly as possible. That
is, SSA’s emphasis on customer service discourages FO personnel from utilizing tools
that could detect fraudulent activity. Although we recognize the need to satisfy
customer demands, we do not believe that prompt customer service should take
precedent over preventing and detecting fraudulent activity.




Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)                 13
                                           Conclusions and
                                          Recommendations
Despite SSA’s commitment to eliminating opportunities for fraud and misuse in its
enumeration process, the Agency’s risk of exposure to such activity remains. We
recognize SSA has limited control over individuals who intentionally choose to misuse
replacement SSN cards the Agency appropriately issued. However, we believe SSA
has a duty to safeguard the integrity of SSNs by reducing opportunities for individuals to
engage in such activity. Given the potential for individuals to improperly obtain and
misuse replacement SSN cards, as evidenced by the examples presented in this report,
we believe SSA would benefit by taking a more proactive role in eliminating
opportunities of such activity.

We believe the actions recommended in previous reports and those in this report will
assist SSA in reducing its risk from individuals who improperly obtain and misuse
replacement SSN cards. Accordingly, we recommend that SSA:

1. 	 Develop regulations and incorporate appropriate system controls to limit the number
     of replacement SSN cards an individual can receive during a 12-month period to
     3 and over a lifetime to 10. SSA should implement a two-pin process requiring
     management personnel to approve extraordinary circumstances that warrant
     exceptions.

2. 	 Re-emphasize the importance of following enumeration policies and procedures
     associated with the issuance of replacement SSN cards, including the requirement
     to independently verify INS documents when indicated by SSA policy and the SAVE
     program.

3. 	 Conduct an inventory to determine the number of FOs that have operational black
     lights and INS document guides to use when verifying evidentiary documents. SSA
     should supply or repair these tools if necessary.

4. 	 Test FO compliance with procedures for issuing replacement SSN cards when
     performing periodic enumeration quality reviews. Additional training and/or
     supervision should be provided to employees if necessary.

AGENCY COMMENTS
Regarding Recommendation 1, SSA agreed it needs to look more carefully at the
issuance of replacement cards to ensure it takes every advantage of systematic
controls, such as limits, that might allow SSA to more effectively identify risk factors and
avoid the issuance of multiple replacement cards in questionable situations. SSA also
stated it is beginning further assessment to determine the most effective systematic
protocols to pursue.


Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)                   14
SSA agreed with Recommendation 2 and stated that, by September 30, 2001, the
Office of Operations will issue a reminder to all field offices, stressing the importance of
following enumeration policies and procedures.

SSA stated it believes current procedures address Recommendation 3. Specifically, the
Agency stated every FO has a copy of the Administrative Confidential Memorandum,
which is the INS’ guide for examining INS documents. SSA also stated the Regional
Integrity on-site security review or FO self-review includes actions to verify the FO’s
black light is operational. Additionally, SSA stated it is working with INS to provide SSA
employees access to more INS automated records and to implement an Enumeration at
Entry initiative.

SSA believes it can address Recommendation 4 through reminder items and training.
SSA stated the Office of Quality Assurance and Performance Assessment (OQA)
conducts an annual end-of-line review of both original and replacement cards issued to
access the accuracy of the process. Upon issuance of the next OQA report, the Deputy
Commissioner for Operations will include a reminder for the regional offices to have
FOs conduct refresher training as indicated by OQA’s findings and to remind staff that
they need to comply with all procedures for issuing replacement SSN cards.

SSA also provided technical comments that we considered and incorporated, where
appropriate. The full text of SSA’s comments is included in Appendix D.

OFFICE OF THE INSPECTOR GENERAL RESPONSE
We believe SSA’s response and planned actions adequately address
Recommendations 1, 2, and 4. However, we believe SSA’s response to
Recommendation 3 does not effectively respond to our goal of reducing opportunities
for individuals to improperly attain and misuse replacement SSN cards.

Regarding SSA’s response to Recommendation 3, we acknowledge SSA’s efforts in
working with the INS to provide SSA employees access to more INS automated records
and to implement the Enumeration at Entry initiative. While we believe these initiatives
will prove useful in the future, full implementation may be years away. In the meantime,
we continue to believe FO personnel should use every tool available, such as black
lights and INS guides, to assist them in detecting invalid evidentiary documents.

In its response, SSA stated every FO has a copy of The Administrative Confidential
Memorandum. We question how the Agency can make such a statement without
conducting an inventory as we suggested. As discussed in the report, 5 (50 percent) of
the 10 FOs we visited told us they did not routinely use a black light. In fact, two FOs
either did not have a black light or the light had been broken for years. Given the
importance of preventing individuals from fraudulently obtaining replacement SSN
cards, we continue to believe SSA should ensure that all FOs have operational black
lights and INS document guides to use when verifying evidentiary documents.
Therefore, we also ask that SSA reconsider its response to this recommendation.


Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)                    15
                                     Appendices





Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)
                                                                          Appendix A


Sample Methodology
To determine the frequency of replacement Social Security number (SSN) cards the
Social Security Administration (SSA) issued from April 1, 1999 through March 31, 2000,
we obtained a data extract from the Modernized Enumeration System. This population
totaled over 11 million replacement SSN cards. From this population, we identified
35,324 number holders to whom SSA issued 3 or more replacement cards. We
reviewed the 192 SSNs where SSA issued 6 or more replacement cards, and we
randomly selected a weighted sample of 100 SSNs from the 35,132 SSNs where SSA
issued 3 to 5 replacement cards. Table A.1. shows the distribution of individuals
receiving multiple replacement SSN cards and sample size.

      Table A.1.: Population and Sample Sizes for Individuals Receiving Multiple
                              Replacement SSN Cards

             Distribution of                 Population               Sample
        Replacement SSN Cards           (Number of Individuals)
       6 or more                                            192                192
          5                                         586                    2
          4                                      3,482                    10
          3                                     31,064                    88
       Subtotal 3 – 5                                    35,132                100
       TOTAL                                             35,324                292

For all cases reviewed, we obtained the following information from these SSA sources.

•	   Numident record ― Information on age, sex, place of birth, and number of
     replacement SSN cards issued over the individual’s lifetime.

•	   Master Earnings File ― Information regarding earnings posted during our audit
     period, and in some cases, prior years.

•	   Earnings Suspense File ― Information on earnings for which the SSN and name
     did not match SSA records.

•    Supplemental Security Income Record Description and Master Beneficiary
•	   Record ― Information regarding whether the individual received title II and/or title
     XVI payments.

Using queries from these SSA systems, we assessed the potential for individuals to
improperly obtain and misuse replacement SSN cards.



Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)
                                                                               Appendix B

Sample Characteristics Measured
                                                                                    Number of
                                                                                  Instances for
                                                                                Individuals Who
                                                                                    Received:
     Characteristics Measured to Identify Instances
        Of Potential Replacement Social Security
                   Number Card Misuse                                          6 or more    3-5
                                                                                 cards     cards

A.   Social Security number (SSN) holders who obtained an improbable              95        13
     number of replacement SSN cards based on their age (that is, the
     number of lifetime cards obtained was equal to or greater than half
     the individual’s age as of our audit period).

B.   SSN holders who received 30 or more lifetime replacement SSN                 27         2
     cards.

C.   SSN holders whose earnings were proportionately higher than                  17         0
     would be expected given the individual’s age, number of employers,
     and type of employment. It is highly improbable that in 1 year an
     individual could work for multiple employers in numerous States
     and earn significant income from traditionally low paying jobs, such
     as those in the agriculture and service industries.

D.   SSN holders who had wages in the Earnings Suspense File (ESF)                 7         4
     possibly because someone else provided an employer an altered
     SSN card (number holder’s SSN but someone else’s name) or used
     the number holder’s SSN for work without showing the employer an
     SSN card . The earnings posted to the ESF coupled with the
     number of replacement SSN cards obtained during our audit period
     indicate possible SSN misuse.

E.   SSN holders were retirement age (62 years or older), and obtained 6           5         0
     or more replacement SSN cards during our audit period.

F.   SSN holders who had earnings and were also drawing disability                 4         0
     benefits under title ll or title XVl. These individuals either exceeded
     their earnings limit or someone else used their SSN for work
     purposes.

     Number of instances identified                                               155       19
     Multiple instances identified (more than one characteristic per case)         47        2
     Number of cases                                                              108       17




Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)
                                                                          Appendix C


Sample Appraisals
     INDIVIDUALS WHO RECEIVED 3 TO 5 REPLACEMENT CARDS FROM
                APRIL 1, 1999 THROUGH MARCH 31, 2000

                    NUMBER OF INSTANCES OF POTENTIAL
                               SSN MISUSE

    Total Population                                                       35,132

    Total Sample Size                                                        100

    Number of Instances In Sample With Potential SSN Misuse                   17

    Projection of Number of Instances of Potential SSN Misuse
    in Population                                                          5,972

 CONFIDENCE LEVEL: We are 90-percent confident the actual number of
 instances of potential SSN misuse in the population is between 3,913 and 8,570.


     INDIVIDUALS WHO RECEIVED 3 TO 5 REPLACEMENT CARDS FROM
                APRIL 1, 1999 THROUGH MARCH 31, 2000

        NUMBER OF INDIVIDUALS WHO WOULD RECEIVE 10 OR MORE
                 LIFETIME REPLACEMENT SSN CARDS

    Total Population                                                       35,132

    Total Sample Size                                                        100

    Number of Individuals in Sample Who Received 10 or More
    Lifetime Replacement Cards                                               18

    Projection of Number of Individuals Who Would Receive
    10 or More Lifetime Replacement Cards in Population                    6,324

 CONFIDENCE LEVEL: We are 90-percent confident the actual number of individuals
 who received 10 or more lifetime replacement SSN cards in the population is between
 4,207 and 8,961.




Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)
                                                                          Appendix D


Agency Comments





Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)
                                                         " S$.f:&c
                                                       "vc    ~
                                                     .i:
                                                      ~    N ::1
                                                                ~
                                                     ~~

                                         SOCIAL         SECURITY

MEMORANDUM


           September   24,   2001                                                Refer To: S 11-3

To:




Subject:   Office of the Inspector General(OIG) Draft Report: "Replacement Social Security Number
           Cards: Opportunities to Reducethe Risk of Improper Attainment and Misuse" (A-O8-00-l006l)
           -INFORMATION


           We appreciateOIG's efforts in conducting this review. Our comments on the report
           recommendationsare attached.

           Pleaselet us know if we may be of further assistance.Staff questionsmay be referred to
           Dan Sweeneyon extension 51957.
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT –
REPLACEMENT SOCIAL SECURITY NUMBER CARDS: OPPORTUNITIES TO REDUCE
THE RISK OF IMPROPER ATTAINMENT AND MISUSE (A-08-00-10061)


Recommendation 1

Develop regulations and incorporate appropriate system controls to limit the number of
replacement Social Security number (SSN) cards an individual can receive during a 12-month
period to 3 and over a lifetime to 10. The Social Security Administration (SSA) should
implement a two-pin process requiring management personnel to approve extraordinary
circumstances that warrant exceptions.

Comment

We agree that we need to look carefully at the issuance of replacement cards to ensure that we
take every advantage of systematic controls, such as limits, that might allow us to more
effectively identify risk factors and avoid the issuance of (multiple) replacement cards in
questionable situations. We are beginning further assessment to determine the most effective
systematic protocols to pursue. We would ask that you designate a representative to work with
us on the intercomponent assessment team that will be convened shortly. Further information
about the potentially fraudulent cases you cite, particularly the results of any further investigation
you may have undertaken, would undoubtedly be helpful to the assessment team's deliberations.

Recommendation 2

Reemphasize the importance of following enumeration policies and procedures associated with
the issuance of replacement SSN cards, including the requirement to independently verify
Immigration and Naturalization Service (INS) documents when indicated by SSA policy and the
Systematic Alien Verification for Entitlements (SAVE) program.

Comment

We concur. The Office of Operations will issue a reminder to all field offices by the end of
September 2001, stressing the importance of following enumeration policies and procedures.

Recommendation 3

Conduct an inventory to determine the number of field offices (FO) that have operational black
lights and INS document guides to use when verifying evidentiary documents. SSA should
supply or repair these tools if necessary.

Comment

We believe current procedures already address this recommendation. Every FO has a copy of
the "Administrative Confidential Memo," which is the INS document guide for examining INS



Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)                           D-2
documents. In addition, the Regional Integrity onsite security review or FO self-review includes
actions to verify that the FO's black light is operational. These reviews are conducted every 2 to
5 years. FOs have the budgetary means to replace or repair any operational equipment in the FO.

We are working with INS to provide SSA employees access to more INS automated records
(specifically, online access to the INS Non-Immigrant Information System) and to implement the
Enumeration at Entry initiative. Fraudulent INS documents will cease to pose a threat once
Enumeration at Entry is fully in place as we plan to then verify all INS documents presented by
aliens applying for SSN cards at SSA offices. Initially, the Department of State (DOS) will
collect the enumeration data for SSA as part of the joint DOS-INS electronic immigrant visa
process. When INS decides to admit the alien as a permanent resident, INS will take action to
issue the individual a Permanent Resident card and forward the enumeration data for that person
to SSA. Currently, SSA, INS, and DOS are working on the necessary systems changes. The
target date for implementation of this phase is late 2002. Once this phase is implemented, SSA,
INS and DOS, will begin discussions for the later phases where INS and or DOS will collect
enumeration data for other groups of aliens.

Recommendation 4

Test FO compliance with procedures for issuing replacement SSN cards when performing
periodic enumeration quality reviews. Additional training and/or supervision should be provided
to employees if necessary.

Comment

We believe OIG’s concerns can be addressed through reminder items and training. The Office of
Quality Assurance and Performance Assessment (OQA) conducts an annual end-of-line review
of both original and replacement cards issued to assess the accuracy of the process. OQA's
annual end-of-line review is not a compliance review as there is no onsite observation of the
FO's interview with the replacement card applicant. The OQA review is designed to identify the
misassignment of an SSN; i.e., cases where an applicant has an SSN, but is assigned another
original SSN, or cases where an applicant is assigned an SSN that belongs to someone else. If
OQA identifies procedural problems during the review, it issues reminder items to field
components alerting them to the issues.

The Deputy Commissioner for Operations (DCO) routinely shares the report of OQA's findings
with the regional offices. Upon issuance of the next OQA report, DCO will include a reminder
for the regional offices to have FOs conduct refresher training as indicated by OQA’s findings
and to remind staff that they need to comply with all procedures for issuing replacement SSN
cards.




Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)                       D-3
                                                                          Appendix E

OIG Contact and Staff Acknowledgments
OIG Contact
   Kimberly A. Byrd, Acting Director, Operational Audits Division, (205) 801-1605

Acknowledgments
In addition to those named above:

   Jeff Pounds, Senior Program Analyst

   Charles Lober, Senior Auditor

   Ellen Justice, Auditor

   Susan Phillips, Program Analyst

   Theresa Roberts, Auditor

   Kathy Youngblood, Senior Auditor

   Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-08-00-10061.




Improper Attainment and Misuse of Replacement SSN Cards (A-08-00-10061)
                           DISTRIBUTION SCHEDULE


                                                                             No. of
                                                                            Copies

Commissioner of Social Security
                                                 1
Management Analysis and Audit Program Support Staff, OFAM
                      10
Inspector General
                                                               1
Assistant Inspector General for Investigations
                                  1
Assistant Inspector General for Executive Operations
                            3
Assistant Inspector General for Audit
                                           1
Deputy Assistant Inspector General for Audit
                                    1
 Director, Systems Audit Division
                                               1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division                                            1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                     1
Issue Area Team Leaders
                                                        25
Income Maintenance Branch, Office of Management and Budget
                      1
Chairman, Committee on Ways and Means
                                           1
Ranking Minority Member, Committee on Ways and Means
                            1
Chief of Staff, Committee on Ways and Means
                                     1
Chairman, Subcommittee on Social Security
                                       2
Ranking Minority Member, Subcommittee on Social Security
                        1
Majority Staff Director, Subcommittee on Social Security
                        2
Minority Staff Director, Subcommittee on Social Security
                        2
Chairman, Subcommittee on Human Resources
                                       1
Ranking Minority Member, Subcommittee on Human Resources
                        1
Chairman, Committee on Budget, House of Representatives
                         1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1
Chairman, Committee on Governmental Affairs                                      1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                              1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        97
              Overview of the Office of the Inspector General


                                       Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial audits,
required by the Chief Financial Officers Act of 1990, assess whether SSA’s financial
statements fairly present the Agency’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs. OA also conducts short-term management and program evaluations focused
on issues of concern to SSA, Congress, and the general public. Evaluations often focus
on identifying and recommending ways to prevent and minimize program fraud and
inefficiency.

                              Office of Executive Operations
OEO supports the OIG by providing information resource management; systems
security; and the coordination of budget, procurement, telecommunications, facilities
and equipment, and human resources. In addition, this office is the focal point for the
OIG’s strategic planning function and the development and implementation of
performance measures required by the Government Performance and Results Act.
OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from SSA,
as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates
responses to Congressional requests for information, and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.


                                 Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                           Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.
